HHS/OIG-Audit--"Review of Unfunded Pension Costs of Blue Cross and Blue Shield of Nebraska, (A-07-95-01166)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Unfunded Pension Costs of Blue Cross and Blue Shield of Nebraska,"
(A-07-95-01166)
January 29, 1996
Complete Text of Report is available in PDF format
(177 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of Unfunded Pension Costs
of Blue Cross and Blue Shield of Nebraska (Nebraska). Nebraska did not make
contributions to the pension trust fund for Plan Years 1987 through 1992. Accordingly,
Nebraska did not fund the pension costs identifiable with its Medicare segment
during this period. As a result, Nebraska accumulated unfunded pension costs
of $73,509 as of January 1, 1995. Nebraska must separately identify and eliminate
this amount from the amortization components of future pension costs. Nebraska
accepted our recommendation.